Nos. 20A53, 20A54
_______
JOSEPH B. SCARNATI III, ET AL.,
Applicants,
v.
KATHY BOOCKVAR, SECRETARY OF PENNSYLVANIA, ET AL.,
Respondents.
_________
REPUBLICAN PARTY OF PENNSYLVANIA,
Applicant,
v.
KATHY BOOCKVAR, SECRETARY OF PENNSYLVANIA, ET AL.,
Respondents.
__________
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on October 5, 2020, one copy of the RESPONSE OF THE
PENNSYLVANIA DEMOCRATIC PARTY RESPONDENTS in the above captioned cases
were served, as required by Supreme Court Rule 29, on the following via U.S. Mail and
electronic mail on all parties required:
Kathy Boockvar
Armezzani, Richard Louis
Myers, Brier & Kelly, LLP
425 Spruce St, Ste 200
Scranton, PA 18503
(570) 877-4851
Boland, Nicole Jeanne
DeLone, John Bartley
Pennsylvania Office of Attorney General
15th Fl Strawberry Sq.
Harrisburg, PA 17120
(717) 783-3146

Davies, Susan M.,
Donovan, Daniel T.,
Glick, Michael A.,
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, N.W.
Washington, DC 20004
Republican Party of Pennsylvania
John Matthew Gore
Alex Potapov
Jones Day
51 Louisiana Avenue, NW
Washington, DC 20001
Kathleen Gallagher
Russell D, Giancola
Porter Wright Morris & Arthur, LLP
6 PPG Place, Third Floor
Pittsburgh, PA 15222
Phone: (412) 235-4500
Joseph B. Scarnati III and Jake Corman
Lawrence J. Tabas
Mathieu J. Shapiro
Richard Limburg
Obermayer Rebmann Maxwell & Hippel LLP
Centre Square West
1515 Market St., Suite 3400
Philadelphia, PA 19102
Jason Torchinsky
Holtzman Vogel Josefiak Torchinsky
15405 John Marshall Hwy
Haymarket, VA 20169
(202) 302-6768

Union County Board of Elections
Page, Allen P., IV
McNerney, Page, Vanderlin & Hall 433 Market St
Williamsport, PA 17701
(570) 326-6555
Westmoreland County Board of Elections
Regoli, David Allen
Westmoreland County Sheriff’s Office Court of Common Pleas
2 N Main St Greensburg, PA 15601
(724) 830-3805
The 67 Counties

Adams County Board of Elections Respondent Allegheny County Board of Elections Respondent Armstrong
County Board of Elections Respondent Beaver County Board of Elections Respondent Bedford County Board of
Elections Respondent Berks County Board of Elections Respondent Blair County Board of Elections Respondent
Bradford County Board of Elections Respondent Bucks County Board of Elections Respondent Butler County
Board of Elections Respondent Cambria County Board of Elections Respondent Cameron County Board of
Elections Respondent Carbon County Board of Elections Respondent Centre County Board of Elections Respondent
Chester County Board of Elections Respondent Clarion County Board of Elections Respondent Clearfield County
Board of Elections Respondent Clinton County Board of Elections Respondent Columbia County Board of Elections
Respondent Crawford County Board of Elections Respondent Cumberland County Board of Elections Respondent
Dauphin County Board of Elections Respondent Delaware County Board of Elections Respondent Elk County
Board of Elections Respondent Erie County Board of Elections Respondent Fayette County Board of Elections
Respondent Forest County Board of Elections Respondent Franklin County Board of Elections Respondent Fulton
County Board of Elections Respondent Greene County Board of Elections Respondent Huntingdon County Board of
Elections Respondent Indiana County Board of Elections Respondent Jefferson County Board of Elections
Respondent Juniata County Board of Elections Respondent Lackawanna County Board of Elections Respondent
Lancaster County Board of Elections Respondent Lawrence County Board of Elections Respondent Lebanon
County Board of Elections Respondent Lehigh County Board of Elections Respondent Luzerne County Board of
Elections Respondent Lycoming County Board of Elections Respondent McKean County Board of Elections
Respondent Mercer County Board of Elections Respondent Mifflin County Board of Elections Respondent Monroe
County Board of Elections Respondent Montgomery County Board of Elections Respondent Montour County Board
of Elections Respondent Northampton County Board of Elections Respondent Northumberland County Board of
Elections Respondent Perry County Board of Elections Respondent Philadelphia County Board of Elections
Respondent Pike County Board of Elections Respondent Potter County Board of Elections Respondent
Schuylkil1 County Board of Elections Respondent Snyder County Board of Elections Respondent Somerset
County Board of Elections Respondent Sullivan County Board of Elections Respondent Susquehanna County
Board of Elections Respondent Tioga County Board of Elections Respondent Union County Board of Elections
Respondent Venango County Board of Elections Respondent Warren County Board of Elections Respondent
Washington County Board of Elections Respondent Wayne County Board of Elections Respondent Westmoreland
County Board of Elections Respondent Wyoming County Board of Elections Respondent York County Board of
Elections Respondent

Kotula, Kathleen Marie
Pennsylvania Department of State
Bureau of Commissions, Elections and Legislation
306 North Office Building Harrisburg, PA 17120
(717) 783-0736

Northampton County Board of Elections
Santee, Richard Eugene
Northampton County Solicitor's Office 669 Washington Street
Easton, PA 18042
(610) 829-6350
Susquehanna County Board of Elections
Schaub, Robert D.
Rosenn, Jenkins & Greenwald, LLP 15 S Franklin St
Wilkes-Barre, PA 18711-0075
(570) 826-5652
Potter County Board of Elections
Shaffer, Thomas R.
Glassmire & Shaffer Law Offices, P.C.
5 E Third St
Coudersport, PA 16915-1631
(814) 274-7292
Armstrong County Board of Elections, Respondent, Bedford County Board of Elections.
Respondent, Blair County Board of Elections. Centre County Board of Elections. Respondent.
Columbia County Board of Elections. Respondent. County Board of Elections, Respondent,
Fayette County Board of Elections, Respondent, Huntingdon County Board of Elections,
Respondent. Indiana County Board of Elections, Respondent, Lackawanna County Board of
Elections, Respondent. Lawrence County Board of Elections. Respondent. Mercer County Board
of Elections, Respondent, Montour County Board of Elections. Respondent. County Board of
Elections. Respondent
Silverman, Steven B.
Staley, Krista Ann M.
Keegan, Searn Robert
Babst Calland Clements and Zomnir PC
2 Gateway Ctr 6th Fl
Pittsburgh, PA 15222
(412) 253-8818

Miffiin County Board of Elections
Snook, Stephen S.
BMZ Law, PC
20 S Wayne St
Lewistown, PA 17044-2145
(717) 363-0342
Bucks County Board of Elections. Respondent. Chester County Board of Elections.
Respondent. Montgomery County Board of Elections. Respondent
Philadelphia County Board of Elections. Respondent
Aronchick, Mark Alan
Hangley, Michele D.
Hill, John Brent
Wiygul, Robert Andrew
Hangley Aronchick Segal Pudlin & Schiller
1 Logan Sq Fl 27
Philadelphia, PA 19103-6995
(215) 496-7061
Franklin County Board of Elections. Respondent. Perry County Board of Elections. Respondent
Edwards, Stephen Bradley
Lavery, Frank J., Jr.
Lavery Law PC 225 Market St
Ste 304
PO Box 1245
Harrisburg, PA 17108
(717) 384-6956
Clarion County Board of Elections. Respondent. Tioga County Board of Elections. Respondent
Gabriel, Christopher P.
Cafardi Ferguson Wyrick Weis & Gabriel LLC
2605 Nicholson Rd
Ste 2201
Sewickley PA 15143
(412) 515-8900

Susquehanna County Board of Elections. Respondent
Gawlas, Robert Lawrence
Rosenn, Jenkins & Greenwald, LLP
15 S Franklin St
Wilkes-Barre, PA 18711
(570) 826-5600
Jefferson County Board of Elections. Respondent
Sobol, Gregory Dale
Zwick, Carl John
Zwick & Zwick LLP
275 Main St
Brookville, PA 15825
(814) 849-0595
Berks County Board of Elections. Respondent
Steere, Christine D.
Deasey, Mahoney & Valentini, Ltd.
103 Chesley Dr
Ste 101
Media, PA 19063
(610) 892-2732
Erie County Board of Elections. Respondent
Talarico, Thomas S.
Talarico & Associates
230 W 6th St
Ste 202
Erie, PA 16507-1077
(814) 459-4472
Northampton County Board of Elections. Respondent
Taylor, Brian J.
Northampton County Solicitor's Office
669 Washington Street
Easton, PA 18042
(610) 829-6350

Elk County Board of Elections. Respondent
Wagner, Thomas George
Meyer Wagner Brown & Kraus
115 Lafayette St
Saint Marys, PA 15857-1327
(814) 781-3445
Butler County Board of Elections. Respondent
White, H. William, III
Butler County Solicitor's Office
124 West Diamond Street
P.O. Box 1208
Butler, PA 16003-1208
(724) 284-5100
Carbon County Board of Elections. Respondent. Representing: Monroe County Board of
Elections. Respondent. Pike County Board of Elections. Respondent. County Board of Elections.
Respondent. Wayne County Board of Elections. Respondent
Geiger. Gerard Joseph
Newman Williams. P.C.
712 Monroe St
P.O. Box 511
Stroudsburg. PA 18360
(570) 421-9090
Greene County Board of Elections, Respondent
Grimm. Robert Eugene
Law Office of Robert Eugene Grimm
P.O. Box 430
Smithfield. PA 15478-0430
(724) 569-2819

Washington County Board of Elections. Respondent
Grimm. Robert J.
Joyce. Ryan Michael
Swartz Campbell, LLC
436 7th St 7th/8th Fl
Pittsburgh, PA 15219-2710
(412) 560-3267
Delaware County Board of Elections, Respondent
Grugan, Terence Martin
Rogers, Edward David
Wingfield, Elizabeth Victoria
Ballard Spahr LLP
1735 Market St Fl 51
Philadelphia, PA 19103-7599
(215) 864-8320
Pennsylvania House of Representatives Democratic Caucus. Amicus Curiae
Hazelwood, Tara Lynn
Pennsylvania House of Representatives
House Democratic Caucus Occ 620
Main Capitol Bldg
Harrisburg, PA 17120-2248
(717) 787-3002
Lancaster County Board of Elections, Respondent
Hausner. Christina Lee
Lancaster County Solicitor's Office
County Of Lancaster
150 N Queen St SE 714
Lancaster, PA 17603
(717) 735-1584

Allegheny County Board of Elections, Respondent
Janocsko, George M.
Allegheny County Law Department
300 Fort Pitt Cmns
445 Fort Pitt Blvd
Pittsburgh, PA 15219
(412) 350-1132
Opsitnick, Allan
Joseph Szefi, Andrew Francis
Allegheny County Law Department
564 Forbes Ave
Ste 1301
Pittsburgh, PA 15219-2910
(412) 391-3299
Blair County Board of Elections, Respondent
Karn, Nathan W.
401 Allegheny St
P.O. Box 415
Hollidaysburg, PA 16648-2011
(814) 695-7581
Pennsylvania AFL-CIO, et al. Amicus Curiae
Teti, Ralph J.
Bielski, John R.
Willig, Williams & Davidson
1845 Walnut St 24th Fl
Philadelphia, PA 19103-4708
(215) 656-3600

Senate Democratic Leader, State Senator Jay Costa, et al., Possible Intervenor
Hafner, Claude Joseph, II
Jumper, Ronald N., Jr.
Pennsylvania State Senate
Senate Of Pennsylvania RM 535
Main Capitol
Harrisburg, PA 17120-0043
(717) 787-3736

Benninghoff, Kerry, Possible Intervenor, Bryan Cutler. Speaker of the PA House of
Representatives, et al., Possible Intervenor. Cutler, Bryan, Possible Intervenor
Wallen, Zachary Michael
Chalmers & Adams LLC
301 S Hills Village Dr Ste LL200420
Pittsburgh, PA 15241
(412) 200-0842
Laurie Webb Daniel
Webb and Daniel
One Atlantic Ctr., Suite 3100
1201 W. Peachtree St., NW
Atlanta, GA 30309-3400
(404) 433-6430
Common Cause Pennsylvania. Possible Intervenor, DeMarco. Patricia M., Possible Intervenor,
League of Women Voters of Pennsylvania, Possible Intervenor, Make the Road Pennsylvania,
Possible Intervenor, Robinson, Danielle Graham, Possible Intervenor, The Black Political
Empowerment Project, Possible Intervenor,
Wise, Kathleen, Possible Intervenor
Martin, Lori A.
Wilmer Cutler Pickering Hale and Dorr LLP
250 Greenwich St, 45th Floor
New York, NY 10007-2140
(212) 295-6412
Cepeda Derieux, Adriel K.
Brannon, Sarah E.
American Civil Liberties Union
915 15th Street NW
Washington, DC 20005
Lakin, Sophia L. Pro Hac Vice
American Civil Liberties Union
125 Broad Street, 18th Floor
New York, NY 10004
Geffen. Benjamin David
McKenzie, Mary M.
The Public Interest Law Center
1500 JFK BlvdSte 802
Philadelphia, PA 19102

Mercer County Board of Elections. Respondent
Madden, William J.
William J. Madden PC
165 Euclid Ave
P.O. Box 981
Sharon, PA 16146-3477
(724) 342-1300
Luzerne County Board of Elections. Respondent
Moran, Lawrence John, Jr.
Joyce, Carmody & Moran, P.C.
9 N Main St Ste 4
Pittston, PA 18640
(570) 602-3560
Adams County Board of Elections. Respondent
Mott. Sean Alexander
Mudd, Molly Ruth
Adams County Solicitor's Office
117 Baltimore St
Gettysburg. PA 17325
(717) 337-5911
Lehigh County Board of Elections. Respondent
Murray, Sarah Mae
County of Lehigh Government Center Room
440 17 S 7th St
Allentown, PA 18101
(610) 782-3180
Tom Ridge, Peter Keisler, Carter Phillips, Stuart Gerson, Christine Todd Whitman, Prospective
Amici Curiae
Richard D. Bernstein
1875 K Street, NW
Washington, DC 20006
(202) 303-1000
Nancy A. Temple
Katten & Temple, LLP
209 South Lasalle Street
Chicago, IL 60604

Cambria County Board of Elections, Respondent
William Gleason Barbin
Cambria County Commissioners
200 South Center
Ebensburg, PA 15931
Beaver County Board of Elections, Respondent
Bureau of Elections
Beaver County Courthouse
810 Third Street
Beaver, PA 15009
Cameron County Board of Elections, Respondent
Cameron County Courthouse
20 E. 5th St.
Emporium, PA 15834
Bradford County Board of Elections, Respondent
Bradford County Courthouse Annex
6 Court Street, Suite 2
Towanda, PA 18848
Clearfield County Board of Elections, Respondent
212 East Locust St.
Clearfield, PA 16830
Cumberland County Board of Elections, Respondent
1601 Ritner Hwy, Suite 201
Carlisle, PA 17013
Forest County Board of Elections, Respondent
526 Elm Street, Box 3
Tionesta, PA 16353
Fulton County Board of Elections, Respondent
116 West Market Street, Suite 205
McConnellsburg, PA 17233

Juniata County Board of Elections, Respondent
P.O. Box 68,
Mifflintown, PA 17059
Lycoming County Board of Elections, Respondent
48 West Third Street,
Williamsport, PA 17701
McKean County Board of Elections, Respondent
500 W Main St
Smethport, PA 16749
Schuylkill County Board of Elections, Respondent
420 North Centre Street
Pottsville, PA 17901
Somerset County Board of Elections, Respondent
300 North Center Avenue
Suite 340
Somerset, PA 15501
Sullivan County Board of Elections, Respondent
245 Muncy Street
P.O. Box 157
Laporte, PA 18626
Warren County Board of Elections, Respondent
204 4th Avenue,
Warren, PA 16365
Wyoming County Board of Elections, Respondent
1 Courthouse Square
Tunkhannock, PA 18657

Additionally, the following email addresses have also been served electronically:
jmgore@jonesday.com;
apotapov@jonesday.com;
lawrence.tabas@obermayer.com;
mathieu.shapiro@obermayer.com;
richard.limburg@obermayer.com;
rarmezzani@mbklaw.com;
nboland@attorneygeneral.gov;
daniel.donovan@kirkland.com;
jtorchinsky@hvjt.law;
kkotula@pa.gov;
greenbergk@gtlaw.com;
maronchick@hangley.com;
edwards@laverylaw.com;
agabriel@cfwwg.com;
rlgawlas@rjglaw.com;
rgrimm@swartzcampbell.com;
grugant@ballardspahr.com;
mhangley@hangley.com;
skeegan@babstcalland.com;
ljm@joycecarmody.com;
mmudd@adamscounty.us;
aopsitnick@opsitnickslaw.com;
apage@mpvhlaw.com;
rschaub@rjglaw.com;
kstaley@babstcalland.com;
info@bmzlaw.com;
gds@zwick-law.com;
info@mwbklaw.com;
csteere@dmvlawfirm.com;
rwiygul@hangley.com;
kgallagher@porterwright.com;
lori.martin@wilmerhale.com;
rteti@wwdlaw.com;
zwallen@cpblawgroup.com;
acepeda@aclu.org;
dbrier@mbklaw.com;
jdelone@attorneygeneral.gov;
richard.limburg@obermayer.com;
kstaley@babstcalland.com;
flavery@laverylaw.com;
rmb@joycecarmody.com;
btaylor@kingspry.com;
cjz@zwick-law.com;
chausner@co.lancaster.pa.us;

cgabriel@cfwws.com;
regoli@regolilaw.com;
rogerse@ballardspahr.com;
ggeiger@newmanwilliams.com;
wwhite@co.butler.pa.us;
jdewald@mpvhlaw.com;
lec@crwlaw.net;
mmudd@adamscounty.us;
nkarn@eveyblack.com;
rschaub@rjglaw.com;
lawyergrimm@hotmail.com;
tcaffrey@rcn.com;
twagner@mwbklaw.com;
tomshaffer@verizon.net;
ttalarico@nwpalawyers.com;
britanderson2002@yahoo.com;
wjmpc@verizon.net;
csteere@dmvlawfirm.com;
dwpolio@hvjt.law;
jake.Evans@hklaw.com;
Matthew.Friedlander@hklaw.com;
Laurie.Daniel@hklaw.com;
I declare under penalty of perjury that the foregoing is true and correct to the best of my
personal knowledge, information, and belief.
Date: October 5, 2020

/s/ Clifford B. Levine
Clifford B. Levine

